 Report on Internal Controls Over
      Performance Measures
Report Number: A070214/B/F/F08002
         October 22, 2007
We conducted this review in accordance with generally accepted government
auditing standards, as well as the provisions set forth in the Office of
Management and Budget (OMB) Bulletin No. 06-03, Audit Requirements for
Federal Financial Statements, related to performance measures. OMB’s Bulletin
No. 07-04 rescinded the requirements for review of performance measures
effective Fiscal Year 2008.

Results of Audit

The internal controls designed by the OCFO over GSA’s performance measure
data reported in the Management Discussion and Analysis Section of the
Agency’s Fiscal Year 2007 Performance and Accountability Report are operating
effectively.

In accordance with GSA Order CFO 2170.1, “Performance Measurement Data
Verification and Validation Procedures,” a cyclical review of the performance
measure data reported by each Service and Staff Office is required. Our review
found that in accordance with this Order, the OCFO performed and documented
the required review of performance measure data, and that the conclusions
therein were adequately supported.

We would like to thank the staff of the Office of the Chief Financial Officer for the
assistance provided during our review. Should you or your staff have any
questions, please feel free to contact me directly or the audit manager for this
review, Anthony Mitchell, on (202) 501-0006.




                                         2
                       Report on Internal Controls Over
                            Performance Measures
                      Report Number: A070007/B/F/F08002
                               October 22, 2007

Report Distribution                                       Copies

Administrator (A)                                            3

Chief Financial Officer (B)                                  3

Audit Follow-Up and Evaluation Branch (BECA)                 1

Acting Assistant Inspector General for Auditing (JA)         2

Assistant Inspector General for Investigation (JI)           1




                                         3
